DODIG-2013-105                               July 18, 2013




          Navy Did Not Develop Processes in the
        Navy Enterprise Resource Planning System
         to Account for Military Equipment Assets
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
BPR                          Business Process Reengineering
CMO                          Chief Management Officer
DDRS-AFS                     Defense Departmental Reporting System-Audited Financial
                                Statements
DPAS                         Defense Property Accountability System
DON                          Department of the Navy
ERP                          Enterprise Resource Planning
FMO                          Office of Financial Operations
NAVAIR                       Naval Air Systems Command
NAVSEA                       Naval Sea Systems Command
                                       INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIRGINIA 22350-1500



                                                                                           July 18, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER, DOD
               DEPUTY CHIEF MANAGEMENT OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               NAVAL INSPECTOR GENERAL

SUBJECT: Navy Did Not Develop Processes in the Navy Enterprise Resource Planning System to
Account for Military Equipment Assets (Report No. DODIG-2013-105)

We are providing this report for your review and comment. Department of Navy Office of Financial
Operations personnel did not use the Navy Enterprise Resource Planning system to support $416 billion
in military equipment assets reported out of the Defense Departmental Reporting System-Audited
Financial Statements. As a result, Navy officials spent $870 million to implement the Navy Enterprise
Resource Planning system and still did not correct the preexisting military equipment material
weakness. We considered management comments on a draft of this report when preparing the final
report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Acting Deputy
Under Secretary of the Navy responded for the Navy Chief Management Officer and agreed with
Recommendation 2; however, the Acting Deputy Under Secretary did not provide planned actions or
actions taken. The Deputy Assistant Secretary of the Navy (Financial Operations) responded for the
Assistant Secretary of the Navy (Financial Management and Comptroller) and agreed with
Recommendations 1.a and 1.b; however, the Deputy Assistant Secretary did not provide sufficient
information. Management comments were partially responsive. Therefore, we request that the
Assistant Secretary of the Navy (Financial Management and Comptroller) and the Navy Chief
Management Officer provide additional comments by August 19, 2013.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible, send a
Microsoft Word (.doc) file and portable document format (.pdf) file containing your comments to
audclev@dodig.mil. Comments provided to the final report must be marked and portion-marked, as
appropriate, in accordance with DoD Manual 5200.01. Copies of your comments must have the actual
signature of the authorizing official for your organization. We are unable to accept the /Signed/ symbol
in place of the actual signature. If you arrange to send classified comments electronically, you must
send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.



                                       Lorin T. Venable, CPA
                                       Assistant Inspector General
                                       Financial Management and Reporting
Report No. DODIG-2013-105 (Project No. D2012-D000DE-0197.000)                        July 18, 2013

                Results in Brief: Navy Did Not Develop
                Processes in the Navy Enterprise Resource
                Planning System to Account for Military
                Equipment Assets
                                                               •   implement processes in the Navy Enterprise
What We Did                                                        Resource Planning system to properly
                                                                   record and support military equipment assets
Our overall objective was to determine whether                     in accordance with DoD Regulation
amounts reported in the Defense Departmental                       7000.14-R, “DoD Financial Management
Reporting System were supported by business                        Regulation,” volume 4, chapter 6.
processes in the Navy Enterprise Resource Planning
(ERP) system for the Aircraft, Shipbuilding, and           We recommend that the Department of the Navy
Weapons Procurement appropriations.                        Chief Management Officer require the Department
                                                           of Navy Office of Financial Operations, in
What We Found                                              conjunction with the Navy Enterprise Resource
Department of the Navy Office of Financial                 Planning system Program Office, to develop a
Operations officials did not use the Navy ERP              business process reengineering plan that accounts for
system to support $416 billion in military equipment       military equipment assets, and considers the Navy
assets reported out of the Defense Departmental            Enterprise Resource Planning system as one of the
Reporting System-Audited Financial Statements.             possible solutions.
This occurred because Office of Financial
Operations officials did not reengineer the business       Management Comments and
process to record military equipment assets in the
Navy ERP system and did not use the asset                  Our Response
management functionality for military equipment            The Acting Deputy Under Secretary of the Navy
asset management in the Navy ERP system. As a              responded for the Navy Chief Management Officer
result, Navy officials spent $870 million to               and agreed with the recommendation. However, the
implement the Navy ERP system and still did not            Acting Deputy Under Secretary did not provide
correct the preexisting military equipment material        planned actions or actions taken. The Deputy
weakness. In addition, the Navy’s unauditable              Assistant Secretary of the Navy (Financial
military equipment assets increased the risk that          Operations) responded for the Assistant Secretary of
DoD will not achieve its goal of audit readiness by        the Navy (Financial Management and Comptroller)
FY 2017.                                                   and agreed with the recommendations. However,
                                                           the Deputy Assistant Secretary did not provide
                                                           sufficient information on how the Navy was going to
What We Recommend                                          correct the military equipment valuation material
We recommend that the Assistant Secretary of the           weakness. Therefore, management comments were
Navy (Financial Management and Comptroller):               partially responsive. We request that the Assistant
                                                           Secretary of the Navy (Financial Management and
    •   reengineer the business process used to            Comptroller) and the Navy Chief Management
        record military equipment and correct the          Officer provide additional comments by August 19,
        existing material weakness in military             2013. Please see the Recommendations Table on the
        equipment valuation and                            back of this page.



                                                       i
Report No. DODIG-2013-105 (Project No. D2012-D000DE-0197.000)      July 18, 2013

Recommendations Table

         Management                    Recommendations     No Additional Comments
                                      Requiring Comment          Required
Assistant Secretary of the Navy   1.a, 1.b
(Financial Management and
Comptroller)

Navy Chief Management Officer     2


Please provide comments by August 19, 2013.




                                             ii
Table of Contents

Introduction                                                                    1

      Objective                                                                 1
      Background                                                                1
      Review of Internal Controls                                               2

Finding. Navy Enterprise Resource Planning System Did Not Account for
Military Equipment Assets                                                       4

      Navy Enterprise Resource Planning System Implemented Without Correcting
          Existing Military Equipment Material Weakness                         4
      Business Processes Needed Reengineering and Navy Enterprise Resource
          Planning Needed Configuration                                         5
      Asset Accounting Capabilities Needed to Achieve Audit Readiness           6
      Recommendations, Management Comments, and Our Response                    9

Appendixes

      A. Scope and Methodology                                                  11
             Oversight                                                          11
             Asset Accounting                                                   11
             Use of Technical Assistance                                        12
             Prior Coverage                                                     12
      B. Navy Military Equipment Accounting Process                             13

Management Comments

      Department of the Navy                                                    15
Introduction
Objective
Our overall objective was to determine whether amounts reported in the Defense
Departmental Reporting System were supported by business processes in the Navy
Enterprise Resource Planning (Navy ERP) system for the Aircraft, Shipbuilding, and
Weapons Procurement appropriations. See Appendix A for a discussion of the scope and
methodology and prior audit coverage.

Background
Public Law 111-84, “National Defense Authorization Act of 2010,” October 28, 2009,
requires auditable DoD financial statements by September 30, 2017. The Assistant
Secretary of the Navy (Financial Management and Comptroller) acknowledged seven
material weaknesses 1 related to seven of the Navy’s business processes and systems
(Collections and Disbursements, Procure to Pay Processes, Real Property, General
Equipment, Military Equipment, Operating Materials and Supplies, and Inventory) that
prevent the Navy from producing auditable financial statements. These material
weaknesses exist, in part, because the Navy did not design its legacy accounting systems
to maintain auditable data at the transaction level to support the amounts reported on its
financial statements. As of September 30, 2012, the Navy reported a military equipment
asset balance of $416 billion, which represents 85 percent of total assets reported in the
Defense Departmental Reporting System-Audited Financial Statements (DDRS-AFS).

The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, developed
the Financial Improvement and Audit Readiness Plan, which is updated biannually, to
improve DoD’s financial processes, controls, and information. The guidance for the Plan
states that reporting entities implementing ERP systems as a solution for audit
impediments should map known processes and control weaknesses to new systems
requirements to ensure that ERP systems will adequately address the impediments.
Before and during implementation of the Navy ERP system, the Financial Improvement
and Audit Readiness Plan identified the system as part of the solution to the Military
Equipment material weakness.

Department of the Navy Chief Management Officer Tasked With
Improving Business Systems
On April 30, 2008, the Secretary of the Navy designated the Under Secretary of the Navy
as the Department of the Navy (DON) Chief Management Officer (CMO). The DON
CMO is the principal driver of Business Transformation in the Navy and Marine Corps.


1
  Material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.


                                                      1
One of the DON CMO’s priorities is to deliver Navy business systems through improved
program execution and management.

Section 2222, title 10, United States Code introduces new requirements for the DoD’s
investment review process, stipulating that defense business systems should not be
certified to obligate funds in excess of $1 million without determining whether an
appropriate business process reengineering (BPR) was completed. Section 1072 of
Public Law 111-84 requires the DON CMO to determine whether an adequate BPR
occurred for ongoing defense business system modernizations to ensure that the business
processes to be supported by the defense business system modernization will be as
streamlined and efficient as possible. Section 901of Public Law 112-81, “National
Defense Authorization Act for Fiscal Year 2012,” December 31, 2011, requires that the
Pre-Certification Authority determine that appropriate BPR was completed before funds
in excess of $1 million are obligated for defense business systems.

Navy ERP System Implemented to Update and Standardize
Business Operations
The Navy ERP system is an integrated business management system that was designed to
update and standardize Navy business operations, provide financial transparency across
the enterprise, and increase effectiveness and efficiency. The Navy uses a software
product from the SAP Corporation 2 that allows them to unify, standardize, and streamline
all its business activities into one integrated system. The Command Implementation
Guidance, “Navy Enterprise Resource Planning Program,” version 3.0, August 31, 2010,
states that the Navy ERP system also has the ability to generate auditable financial
statements compliant with all financial accounting standards and governing policies,
regulations, and laws.

Navy Office of Financial Operations Provides Oversight
The DON Office of Financial Operations (FMO) provides financial management
guidance, among other functions, to the Navy. FMO reports on financial data and
manages accounting and financial-related programs to help commands comply with DoD
requirements. FMO leads financial programs and activities that are designed to improve
the Navy and support the warfighter. FMO also provides guidance and support to the
Navy ERP Program Management Office to resolve financial management issues.
Additionally, FMO uses the Defense Finance and Accounting Service to create and report
the Navy’s financial statements through DDRS-AFS.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as


2
  SAP Corporation produces enterprise resource planning software. Its software provides role-based access
to critical data, applications, and analytical tools and allows customers to streamline their processes across
procurement, manufacturing, service, sales, finance, and human resources.

                                                      2
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness regarding the implementation of the Navy ERP system. Specifically,
FMO personnel did not use the Navy ERP system to support $416 billion in military
equipment assets. This occurred because FMO officials did not reengineer the business
process to record military equipment assets in the Navy ERP system and did not use the
asset management functionality for military equipment in the Navy ERP system. We will
provide a copy of the report to the senior official responsible for internal controls in the
Department of the Navy.




                                             3
Finding. Navy ERP System Did Not Account
for Military Equipment Assets
FMO officials did not use the Navy ERP system to support $416 billion3 in military
equipment assets reported out of the DDRS-AFS. This occurred because FMO officials
did not reengineer the business process to record military equipment assets using the
Navy ERP system and did not use the asset management functionality for military
equipment asset management in the Navy ERP system. As a result, Navy officials 4 spent
$870 million to implement the Navy ERP system and still did not correct the preexisting
military equipment material weakness. In addition, the Navy’s unauditable military
equipment assets increased the risk that DoD will not achieve its goal of audit readiness
by FY 2017.

Navy ERP System Implemented Without Correcting
Existing Military Equipment Material Weakness
FMO officials did not use the Navy ERP system to support $416 billion in military
equipment assets reported out of the DDRS-AFS. Navy officials first identified military
equipment valuation as a long-standing financial material weakness in 2005. In addition,
the DoD Office of Inspector General and the Government Accountability Office noted
inaccurate reporting of military equipment on Navy’s financial statements as early as
1996. Given this, Navy officials identified the Navy ERP system as the solution to its
military equipment material weakness. For example, Navy officials stated in several
Financial Improvement and Audit Readiness Plans that the Navy ERP system is its means
to achieve audit readiness for the military equipment material weakness. Specifically,
Navy officials stated in the December 2005 plan, before the first system implementation
in 2007, that it would use the Navy ERP system to account for military equipment assets.
In the November 2012 plan, the military equipment material weakness was still linked to
the Navy ERP system. In addition, several Navy ERP requirements documents (such as
the Navy ERP Economic Analysis for Full Deployment Decision, March 23, 2011, and
Navy’s Capability Production Document for Navy ERP, version 3, June 30, 2009)
outlined how the Navy ERP system would automate and track the recording of military
equipment assets. However, FMO personnel stated that the Navy ERP system did not
account for military equipment assets because they did not plan to account for military
equipment assets using the system.




3
 This amount includes assets from the Aircraft, Shipbuilding, and Weapons Procurement appropriations.
4
 Navy officials include decision makers from multiple offices, including Navy ERP system Program
Office, Program Executive Office-Enterprise Information Systems, and the Assistant Secretary of the Navy,
Research, Development, and Acquisition.

                                                   4
Business Processes Needed Reengineering and Navy
ERP Needed Configuration
FMO officials did not reengineer the business processes to record military equipment
assets in the Navy ERP system and did not configure the functionality for military
equipment asset management in the Navy ERP system. We made several attempts to
determine why the business processes for military equipment asset reporting was not
reengineered before the Navy ERP’s implementation. In response, FMO personnel stated
they could not provide documentation for this decision and any response would be part of
their official response to the draft report. In addition, FMO personnel confirmed that, as
of January 2013, no plan was in place to include military equipment asset management in
the Navy ERP system.

Business Process Not Reengineered
FMO officials did not reengineer business processes to account for military equipment
assets. The Navy should have planned the business process before it implemented the
system to correct the existing military equipment valuation material weakness. In
addition, section 1072 of the Public Law 111-84 establishes new requirements that
required ongoing defense business system modernizations be certified as to whether or
not business process reengineering had occurred to ensure the system will be as
streamlined and efficient as possible. As a result of these new requirements for BPR, the
Navy started Business Process Standardization meetings in November 2012 to identify
how it would reengineer its business processes to account for military equipment assets in
the Navy ERP system. However, as of January 2013, the Navy did not have a plan in
place to standardize or reengineer these processes.

Section 1072 requires the DON CMO to determine if appropriate BPR efforts were
completed and, if not, the DON CMO must develop a plan for conducting appropriate
BPR efforts. DON CMO personnel stated that the military equipment assets were not
included because there was not a business case to do so. Consequently, DON CMO
personnel did not require Navy ERP Program Office personnel or FMO officials to
complete a formal BPR plan that included military equipment assets in the Navy ERP.
According to the DoD DCMO:

               [t]he business case provides a compelling, defendable, and credible justification for the
               recommended approach to solving a defined problem. It includes a problem statement,
               which is the output of the analysis conducted after a business need, capability gap, and/
               or problem is identified. Together, the business case and problem statement: address the
               fundamental decision of whether or not the Department should take further action to
               solve the problem; and erase the need for duplicative and cumbersome documentation
               requirements.

However, the existing military equipment material weakness should be a credible reason
to create a business case because its correction will improve the Navy’s ability to produce
auditable financial statements. Therefore, the DON CMO should require FMO, in
conjunction with the Navy ERP Program Office, to develop a BPR plan supported by a
business case that accounts for military equipment assets in the Navy ERP system.


                                                  5
Asset Management Functionality Not Configured
FMO officials did not configure the functionality for military equipment asset
management in the Navy ERP system. The Navy initiated a project in April 2010 to
determine whether the Navy ERP system could account for military equipment assets.
The project identified gaps that prevented the Navy ERP system from recording military
equipment assets. For example, the Navy ERP system did not have a dedicated general
ledger account for military equipment. Navy officials developed an engineering change
proposal dated January 18, 2012, for the Navy ERP system that would address the gaps
identified in the project and configure the Navy ERP system to record military equipment
properly. The engineering change proposal planned to configure the Navy ERP system to
capture transaction events throughout the asset’s lifecycle. Also, the engineering change
proposal was intended to fix the gaps that prevented Navy commands 5 from being audit
ready, contributed to non-compliance with DoD regulations, such as DoD Regulation
7000.14-R, “DoD Financial Management Regulation,” volume 4, chapter 6, and
prevented the implementation of corrective action to address material weaknesses
recognized in the 2010 and 2011 Navy Statement of Assurance. In the engineering
change proposal, Navy officials stated that the primary benefit for implementing the
configuration change was to comply with regulations and support auditability. However,
Navy officials did not implement the engineering change proposal because they did not
reengineer their business process for recording military equipment assets.

Asset Accounting Capabilities Needed to Achieve
Audit Readiness
Navy officials spent $870 million to implement the Navy ERP system and still did not
correct the preexisting military equipment material weakness. Without reengineered
business processes and asset accounting capabilities in the Navy ERP system, Navy
                                             officials will not correct the existing military
     The Navy’s unauditable military         equipment material weakness. In addition,
    equipment assets increased the risk      the Navy’s unauditable military equipment
   that DoD would not achieve its goal       assets increased the risk that DoD would not
      of audit readiness by FY 2017.         achieve its goal of audit readiness by
                                             FY 2017. FMO officials used inefficient
                                             manual processes and journal vouchers to
report the amount of military equipment assets on its financial statements rather than
using the Navy ERP system. For example, FMO manages a process that involves data
calls and manual entries from six systems, 6 so it can provide the military equipment
summary value to the Defense Finance and Accounting Service for reporting purposes.




5
  The four major commands that use the Navy ERP system are Naval Air Systems Command, Naval Sea
Systems Command, Naval Supply Systems Command, and Space and Naval Warfare Systems Command.
6
  The six systems are Aircraft Inventory and Readiness Reporting System, Naval Vessel Register, Standard
Accounting and Reporting System-Headquarter Claimant Module, Defense Property Accountability
System, DDRS-Data Collection Module, and DDRS-AFS.

                                                   6
For this process, Naval Air Systems Command (NAVAIR) and Naval Sea Systems
Command (NAVSEA) personnel use data from their individual property systems to
provide a list of military equipment assets, values, and useful life data to FMO. Then,
FMO reconciles these updates to assets in the Defense Property Accountability System
(DPAS). FMO makes manual adjustments in DPAS to reflect the changes for the period.
Once updates have been made, DPAS automatically calculates and runs the depreciation
based on the dates, values, and useful life data that FMO entered. DPAS creates an
extract file that shows a complete list of military equipment assets, including aircraft and
ships. FMO analyzes this extract file to ensure that all additions and deletions for the
quarter were properly entered. Once FMO verifies the information is complete, the
DPAS Program Office runs an accounting report that combines all the asset categories in
a summary document. Finally, DPAS Program Office sends the document to FMO for
entry into the DDRS-Data Collection Module. The Defense Finance and Accounting
Service uses the summary value from the DDRS-Data Collection Module to prepare
journal vouchers in DDRS-AFS for military equipment assets. The audit team generated
the figure below shows the DoDIG summarized version to depict the FMO-managed
process that involves data calls and manual entries from six systems. For the official
FMO process, see Appendix B.

     Figure 1. FMO-Managed Process for Reporting Military Equipment Assets

                                       DPAS runs a depreciation
   FMO requests a inventory list                                       FMO receives the extract file.
                                    schedule and combines military
     from commands on a
                                     equipment values into a DPAS
         quarterly basis.
                                              extract file.




                                                                      FMO enters amounts from the
                                    FMO enters military equipment       DPAS extract file into the
   NAVAIR and NAVSEA provide
                                      values into the DPAS after      DDRS Data Collection Module.
     inventory lists to FMO.
                                      commands provide values.




                                      FMO returns reconciliation     DFAS obtains amounts located in
   FMO conducts an inventory       results to NAVAIR and NAVSEA to      the DDRS Data Collection
   reconcilitation to determine              obtain military          Module and creates a journal
   military equipment additions            equipment values.         voucher to balance the amounts
            or deletions.                                                 in military equipment
                                                                             in the DDRS-AFS.


Source: Audit Team Summarization Depicting the FMO-Managed Process

The process above is inefficient and the Navy cannot trace the military equipment
summary value back to individual military equipment assets, resulting in an inadequate
audit trail. If FMO officials reengineer their business processes to account for military
equipment assets and use the asset management functionality in the Navy ERP system,
they could simplify the process above. For example, Navy personnel could enter military
equipment assets directly into the Navy ERP system, when acquired, and all accounting
                                                7
functions related to those assets could occur in the Navy ERP system. The military
equipment assets information could then be sent, through direct interface, to the DDRS-
Budgetary and ultimately to the DDRS-AFS for financial reporting. The figure below
shows a hypothetical process that accounts for the Navy’s military equipment assets,
using only two systems.

           Figure 2. Hypothetical Process for Military Equipment Assets
                                                                  Military equipment
                                   Military equipment
   Military equipment                                               assets are sent
                                     assets are sent
   assets are entered                                             electronically from
                                    electronically to
   into the Navy ERP.                                            the DDRS-Budgetary
                                  the DDRS-Budgetary.
                                                                   to the DDRS-AFS.

Source: Audit Team

If the Navy revises its process and uses the Navy ERP system to account for military
equipment assets (as shown above), then it could track its actual costs from acquisition
through retirement. Additionally, a clear audit trail would exist in the systems because
the Navy ERP system would feed directly in to the DDRS-AFS. Therefore, the Assistant
Secretary of the Navy (Financial Management and Comptroller), should reengineer the
business process used to record military equipment and correct the existing material
weakness in military equipment valuation. In addition, the Assistant Secretary of the
Navy (Financial Management and Comptroller), should implement processes in the Navy
ERP system to properly record and support military equipment assets in accordance with
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 4,
chapter 6.




                                           8
Recommendations, Management Comments, and
Our Response
1. We recommend that the Assistant Secretary of the Navy (Financial Management
and Comptroller):

       a. Reengineer the business process used to record military equipment and
correct the existing material weakness in military equipment valuation.

      b. Implement processes in the Navy Enterprise Resource Planning system to
properly record and support military equipment assets in accordance with DoD
Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 4,
chapter 6.

Department of the Navy Comments
The Deputy Assistant Secretary of the Navy (Financial Operations) responded for the
Assistant Secretary of the Navy (Financial Management and Comptroller) and agreed
with the recommendations. He stated while the military equipment valuation has been a
long-standing financial reporting weakness, other competing requirements have
consumed the majority of the Navy’s available resources. The Deputy Assistant
Secretary stated the Navy established an Executive Level, Property Governance Council
to address enterprise wide property issues. He stated FMO personnel would engage the
Property Governance Council to advance the priority of information technology
investments on the military equipment valuation material weakness. The Deputy
Assistant Secretary stated the Property Governance Council serves as a critical element
for the Department of the Navy to comply with the Public Law 111-491, “National
Defense Authorization Act for Fiscal Year 2011,” May 21, 2010 requirement to ensure
financial statements are auditable by September 30, 2017.

Our Response
Comments were partially responsive. We recognize there will be competing priorities
when implementing a system of this magnitude. However, the Navy ERP can
accomplish many business functions for the Navy and should be used to its fullest extent
possible. The military equipment valuation weakness has been a long-standing problem
for the Navy and existed before the Navy ERP was implemented. If the Navy uses the
Navy ERP to account for military equipment, it could eliminate the material weakness.
Therefore, we ask that the Assistant Secretary of the Navy (Financial Management and
Comptroller) provide a plan for correcting the material weakness in military equipment
valuation, a timeframe for the when the Navy expects to meet with the Property
Governance Council to adjust prioritization for correcting the weakness, and provide
determinations that the Council made by August 19, 2013.




                                            9
2. We recommend that the Navy Chief Management Officer require the Office of
Financial Operations, in conjunction with the Navy Enterprise Resource Planning
System Program Office, to develop a business process reengineering plan that
accounts for military equipment assets, and considers the Navy Enterprise Resource
Planning system as one of the possible solutions.

Department of the Navy Comments
The Acting Deputy Under Secretary of the Navy responded for the Navy Chief
Management Officer and agreed with the recommendation. The Acting Deputy Under
Secretary stated the agreement was based on the expectation that the Navy ERP system
would not be considered as the sole source solution and other possibilities would be
considered through business process analysis.

Our Response
Comments were partially responsive. The intent of the recommendation was to require a
business process reengineering plan that corrects the military equipment material
weakness. Comments from the Acting Deputy Under Secretary did not include an action
plan for developing a business process reengineering plan or correcting the material
weakness. Therefore, we ask that the Navy Chief Management Officer provide
additional comments by August 19, 2013.




                                          10
Appendix A. Scope and Methodology
We conducted this performance audit from August 2012 through May 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit focused on the implementation of the asset management functionality in the
Navy ERP system and its current processes and procedures used to account for and report
military equipment on the Navy’s financial statements. Our scope included examining
Aircraft, Shipbuilding, and Weapons Procurement appropriations amounts reported in the
DDRS to determine whether those amounts are supported by business processes in the
Navy ERP system. We focused on military equipment assets because they comprise the
majority of those appropriations values.

Oversight
We interviewed personnel from the offices of FMO, NAVAIR, NAVSEA, and Defense
Finance and Accounting Service regarding their involvement and oversight in the
implementation of the Navy ERP system and requested supporting documentation. In
addition, we conducted interviews with FMO personnel to obtain an understanding of the
Navy’s Military Equipment reporting processes for Aircraft, Ships, and Weapons. We
also conducted interviews with NAVSEA and NAVAIR personnel to obtain an
understanding of their process for reporting aircraft and ship values to FMO for inclusion
in the Navy financial statements.

To accomplish these steps, we contacted and interviewed DoD officials at the following
locations:

   •   FMO, Washington, D.C.;
   •   NAVAIR, Patuxent River, Maryland;
   •   NAVSEA, Washington, D.C.; and
   •   Defense Finance and Accounting Service, Cleveland, Ohio.

Asset Accounting
We obtained and reviewed June 30, 2012, and September 30, 2012, trial balances and
supporting journal vouchers from the Navy ERP system and DDRS-AFS and information
listed below:

   •   NAVAIR Appropriation 1506, “Aircraft Procurement, Navy.” We also obtained
       aircraft valuation documents from the Aircraft Inventory and Readiness Reporting
       System and DPAS and the President’s Budgets for this appropriation;




                                            11
   •   NAVSEA Appropriation 1611, “Shipbuilding and Conversion, Navy,” Naval
       Vessel Register screenshots, and the Standard Accounting and Reporting System-
       Headquarters Claimant Module financial data; and

   •   NAVSEA and NAVAIR Appropriation 1507, “Weapons Procurement, Navy.”

We reviewed Financial Improvement and Audit Readiness Plans from FY 2005 through
FY 2012 posted on the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD’s website to identify the role of the Navy ERP system in achieving
auditability, specifically as it relates to military equipment asset accounting.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Use of Technical Assistance
During the audit, we requested and received technical assistance from the DoD Office of
Inspector General Technical Assessment Division. Personnel from the Technical
Assessment Division assisted with determining whether the Navy ERP system included
asset management functionality to account for military equipment assets.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued one report
discussing military equipment in the Navy ERP system. Unrestricted GAO reports can
be accessed over the Internet at http://www.gao.gov.

GAO
GAO-10-695, “Additional Actions Needed to Improve Financial Management of Military
Equipment,” July 26, 2010.




                                           12
Appendix B. Navy Military Equipment
Accounting Process
FMO officials provided the flowcharts below and included the flowcharts in two
documents: “Department of the Navy’s Defense Property Accountability System
Reporting Process” and the “Department of the Navy’s Quarterly Data Collection
Module Financial Reporting Process.” These flowcharts depict the Navy’s processes. If
FMO officials used the Navy ERP to account for military equipment assets, they would
reduce the complexity of these processes and assist the Navy with correcting the military
equipment material weakness.

            Figure 1. FMO Military Equipment Process for Aircraft and Ships
FMO-2 Defense Property Accountability System Process for Aircraft and Ships



                                                                                                              2.4
                                                                                                      NAVAIR obtains
                                   2.1
   NAVAIR




                                                                                           2.4.1          budgetary
                            NAVAIR extracts                                               Aircraft      information to
                AIRRS
                 2.1.1




                               the aircraft                                              Valuation       complete the
                             population from                                             Template     Aircraft Valuation
                            AIRRS and sends                                                              Template for
                                to FMO 2                                                               submission to
                                                                                                            FMO 2




                                     2.                                                                      2.3
                            FMO 2 requests                                                           FMO prepares and               2.5
                                                                                   2.2




                                                                                                                                                       DPAS
                            aircraft data from                                                        sends the Aircraft   FMO compiles the




                                                                                                                                                        4.1
                                                                             FMO 2 reconciles
                                                          DPAS




                                                                                                                           aircraft and budget
                                                          2.2.1




                                 NAVAIR                                                              Valuation Template
                                                                             AIRRS data and                                   information in
                                                                                                         to NAVAIR
                                                                               DPAS data                                     preparation for
                                                                                                     requesting aircraft
                                   Yes
   FMO 2




                                                                                                     acquisition budget        DPAS entry
                                                                                                         information

                                                               3.
                                     1.
                                                            FMO 2
                             Is the data input                                                              2.3.1
              Start                              No      requests ship                                                                                   4.
                                process for                                                           Aircraft Valuation                                             A
                                                           data from                                                                                FMO inputs
                                 NAVAIR?                                                                  Template
                                                           NAVSEA                                                                                aircraft and ship
                                                                                                                                                 data into DPAS



                                                              3.1
                                                       NAVSEA prepares
                                                        the Nuclear and
                         3.1.1
                         NVR




                                                          Non-Nuclear
                                                          Depreciation
   NAVSEA




                                                       Spreadsheets and
                                                        sends to FMO-2


                                                             3.1.3
                                                       Nuclear and Non-
                         STARS
                          3.1.2




                                                      Nuclear Depreciation
                                                         Spreadsheets




Source: Navy FMO




                                                                                     13
                  Figure 2. DPAS to DDRS-Data Collection Module Reporting Process
   Defense Property Accountability System Military Equipment Report Compilation Process




                                           6.2                       7.1
                                     Major Command           Capital Asset Trial
                         A           CFO Accounting           Balance Report
                                     Statement Report



                                                                                            8.                         9.
                                                                                        The DPAS                   The DPAS
    DPAS Office




                                              6.
                                                                      7.            Property Specialist             Property
                          5.         The DPAS Property
                                                             The DPAS Property        reconciles the                                           9.1
                    Depreciation      System Specialist                                                         Specialist Builds
                                                              System Specialist     Capital Asset Trial                                    DCM Military
                    is run on the     extracts the Major                                                        the DCM Military
                                                             extracts the Capital   Balance Report to                                    Equipment Report
                      DPAS ME          Command CFO                                                             Equipment Report
                                                             Asset Trial Balance        the Major                 and sends to
                     population.    Accounting Statement
                                                             Report from DPAS.       Command CFO                     FMO.
                                     Report from DPAS.
                                                                                       Accounting
                                                                                    Statement Report.




                                           DPAS
                                            6.1




                                                                                                                        10.
                                                                                                          The FMO Accountant enters              Finish
                                                                                                             the data from the DCM
                                                                                                          Military Equipment Report in
    FMO 2




                                                                                                                      DCM




                                                                                                                     DCM
                                                                                                                     10.1
   Source: Navy FMO

                   Figure 3. DDRS-Data Collection Module to DDRS-AFS Financial
                                        Reporting Process




Source: Navy FMO

                                                                            14
Department of the Navy Comments

Click to add JPEG file




              16
Click to add JPEG file




         17
